Attorneys for Petitioner
Charles Justin Cooper
Counsel of Record
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, DC 20036
ccooper@cooperkirk.com
202-220-9600
Party name: W. Clark Aposhian
Attorneys for Respondents
Brian H. Fletcher
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Party name: Merrick Garland, Att'y Gen., et al.

